                                  EVALUATION




 BUREAU OF INDIAN AFFAIRS’
 DETENTION FACILITIES




Report No.: WR-EV-BIA-0005-2010      March 2011
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                               MAR 3 1 2011
Memorandum

To:        Larry Echo Hawk
           Assistant Secretary - Indian Affairs

From:      Mary L. Kendall
           Acting Inspector Genera

Subject:   Final Evaluation - Bureau ofIndian Affairs' Detention Facilities
           Report No. WR-EV-BIA-0005-2010

       This memorandum transmits the results of our final report detailing the results of our
evaluation ofthe Bureau ofIndian Affairs' (BIA) detention facilities . Our objective was to
determine what happened to budget funds provided to BIA for staffing detention facilities if they
were not used to hire staff. In addition, we wanted to determine what actions BIA has taken to
adequately staff these facilities .

        We found that BIA does not have a budget allocation for staffing its detention facilities
nor a financial management system that identifies, accumulates, and reports on how funds are
spent agency-wide. We learned that BIA failed to address staffing shortages reported in a 2004
Office of Inspector General report, and detention facilities continue to be understaffed.
Furthermore, we found that the facilities themselves are in poor condition.

         Following the completion of our fieldwork, we met with the bureau' s newly appointed
Deputy Director of the Office of Justice Services, who has been working on a holistic approach
to address overall detention operational deficiencies, which includes the recruitment and
retention of correctional officers and improving the overall physical conditions of detention
facilities. The bureau is also working on establishing a system to track the number of various law
enforcement staff positions agency-wide and account for the allocation and expenditure of law
enforcement funds.

        The draft report contained three recommendations directed to the Assistant Secretary -
Indian Affairs. In the Indian Affairs ' February 22, 2011 response to the draft report (Appendix
3), the Assistant Secretary concurred with two of the recommendations. Based on the response,
we requested additional information for all three recommendations (see Appendix 4 for the status
ofthe recommendations). We respectfully request a written response to this report, number WR-
EV-BIA-0005-2010, within 30 days. The response should provide information detailing actions
taken or planned to address report recommendations, officials involved, and target dates for
implementation. Please address your response to:




                               Office of Inspector General I Washington, DC
               Ms. Kimberly Elmore
               Assistant Inspector General for Audits, Inspections, and Evaluations
               U.S. Department of the Interior
               Office of Inspector General
               1849 C Street, NW. MS 4428
               Washington, DC 20240

      If you have any questions regarding this report, please do not hesitate to contact me at
202-208-5745.




                                                2
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
   Objective ............................................................................................................. 2
   Background ......................................................................................................... 2

Findings................................................................................................................... 3
   Funding Allocation.............................................................................................. 3
      Unspecified Allocation and Central Tracking for Detention Funds ................ 4
   Staffing Issues ..................................................................................................... 4
      Understaffed Detention Facilities .................................................................... 4
      DOJ Grant Process........................................................................................... 7
   Facilities in Unsatisfactory or Poor Condition .................................................... 7
      BIA-Operated Facilities ................................................................................... 7
      Tribally-Operated Facilities ............................................................................. 9

Conclusion and Recommendations ....................................................................... 10
   Conclusion......................................................................................................... 10
      Recent Actions to Address Staffing Shortages at Detention Facilities ......... 10
   Recommendations ............................................................................................. 10

Appendix 1: Scope and Methodology................................................................... 13

Appendix 2: Sites Visited and/or Contacted ......................................................... 14

Appendix 3: Bureau Response .............................................................................. 15

Appendix 4: Status of Report Recommendations ................................................. 19
Results in Brief
The U.S. Department of the Interior Office of Inspector General conducted a
review of the Bureau of Indian Affairs’ (BIA) detention facilities in 2004 that
concluded that BIA’s detention facilities were severely understaffed and in poor
physical condition. As a result, BIA received significant funding increases to
address these issues. We conducted this evaluation specifically to determine how
BIA spent their increased funding and how they addressed staffing issues.

We found that BIA does not employ a specific budget allocation for staffing its
detention facilities Nationwide. Instead, BIA’s Office of Justice Services (OJS)
decides how detention funds are allocated by facility and by tribe.

We could not determine how BIA spent the increased funding it received because
in fiscal years 2005 through 2010, the appropriation language did not specify how
detention funds were to be used, leaving it to bureau management discretion. The
bureau does not have a financial management system that identifies, accumulates,
and reports on how funds are spent agency-wide by activity or cost category.
Without specific appropriations or accounting, we could not identify the funding
that should have been used to pay salaries for existing employees, as well as new
hires, to address the staffing shortages. We found that BIA has failed to address
staffing shortages, which has created an unsafe atmosphere for both staff and
inmates.

While the scope of this review did not include assessing the state of the facilities,
we could not ignore the egregious physical conditions of the detention facilities
that we visited including, but not limited to, unsecure fencing, doors, and
windows; absence of practiced safety and security measures; leaky roofs; rusted
sinks, toilets, and showers; and an overall lack of cleanliness.

Following the completion of our fieldwork, we met with the bureau’s newly
appointed Deputy Director of OJS, who has been working on a holistic approach
to address overall detention operational deficiencies, which includes the
recruitment and retention of correctional officers and improving the overall
physical conditions of detention facilities. The bureau is also working on
establishing a system to track the number of various law enforcement staff
positions agency-wide and account for the allocation and expenditure of law
enforcement funds.




                                                                                        1
Introduction
Objective
Our objective was to determine how the Bureau of Indian Affairs (BIA) spent the
significant funding increases received for staffing its detention facilities and what
actions it was taking to adequately staff these facilities.

Background
In September 2004, the U.S. Department of the Interior, Office of Inspector
General (OIG), issued a report, “Neither Safe Nor Secure: An Assessment of
Indian Detention Facilities,” which found that BIA failed to provide safe and
secure detention facilities throughout Indian Country. Among many of the
report’s findings, it stated that BIA’s detention program funding was managed
haphazardly and virtually unaccounted for once distributed to tribes, and that
detention centers were being operated under minimum staffing levels.

Since this time, BIA’s detention facilities received funding from BIA’s Operation
of Indian Programs through the Department’s annual appropriation. Detention
funds are two-year monies. Funding for detention has increased 48 percent from
$43.8 million in 2005 to $64.7 million in 2009. In fiscal years 2005 through 2010,
appropriation language did not specify how detention funds were to be used.
BIA reported that as of September 2009, the detention program consisted of 94
detention facilities: 23 bureau-operated facilities, 52 tribally-operated facilities
under Public Law (P.L.) 93-638 contracts, and 19 tribally-operated facilities under
self governance compact agreements.

Corrections data provided by BIA shows that the majority of these facilities
continue to have staffing shortages. According to the National Institute of
Corrections Standards (a sub-agency of the U.S. Department of Justice, Federal
Bureau of Prisons), bureau-operated facilities should employ a total of 445 staff
members, and tribally-operated facilities should employ a total of 1290 staff
members. In 2009, BIA’s bureau-operated facilities were staffed at only 38
percent, with 168 staff members, and BIA’s tribally-operated facilities were
staffed at only 67 percent, with 861 staff members.




                                                                                    2
Findings
We could not determine how BIA spent the funding increases it received to fix the
staffing shortages at its detention facilities. Our review revealed that despite a
significant increase in funds, BIA has not fully staffed its facilities.

BIA does not have an allocation for staffing its detention facilities or a financial
management system that identifies, accumulates, and reports on how funds are
spent. Without specific allocation and a financial management system, we could
not determine how the funds for staffing were used. We found that since the
issuance of the OIG’s 2004 report, BIA failed to address staffing shortages.

Furthermore, while the scope of our review did not include the physical
conditions of BIA detention facilities, we could not ignore the poor conditions of
the facilities themselves.

Funding Allocation
We found that BIA accounts for expenditures related to bureau-operated facilities,
whereas BIA does not account for expenditures related to tribally-operated
facilities. BIA’s human resources data show that bureau-operated facilities
employ 132 correctional officers with about $5.5 million in salaries. Figure 1
illustrates salary and benefits expenditures for bureau-operated facilities in fiscal
years 2008 and 2009.

                          BIA-Operated Facilities
            2008 and 2009 Expenditures for Salaries and Benefits

                                                  Total Spent on            Percentage Spent
Fiscal Year              Total Allocated          Salaries and              on Salaries and
                                                  Benefits                  Benefits
2008                     $27 million              $13.1 million             49 percent
2009                     $32 million              $13.3 million             42 percent

Figure 1. This table illustrates both the dollars allocated to BIA-operated facilities from fiscal
year 2008 to fiscal year 2009 and the percentage of those dollars used for salaries and
benefits.

The bureau’s accounting of the P.L. 93-638 tribally-operated facilities entails only
the drawdown of the funding allocated to the tribe. In fiscal years 2008 and 2009,
P.L. 93-638 tribally-operated facilities were allocated $29 million and $31
million, respectively. These tribes track their own expenditures so financial data
provided by BIA shows only the amount allocated and drawn down (expenditure).




                                                                                                 3
Unspecified Allocation and Central Tracking for Detention Funds
We found that BIA does not have a specific allocation for staffing. Instead, the
Office of Justice Services (OJS) allocates a lump sum amount to each facility and
tribe. We could not easily determine how detention funds were used because BIA
does not have a financial management system that identifies, accumulates, and
reports on how funds are spent agency-wide by activity or cost category. We were
told that detention funds, when not used for hiring, are primarily used to pay for
staff overtime, temporary relocation of staff, contract bed space, vehicle
purchases, operating costs, or other law enforcement activities not directly related
to detention.

Once funds are allocated to the facility, if bureau-operated, or to the tribe, if
tribally-operated, management at each of the facilities decides how to distribute
funds. For bureau-operated facilities, we found that in fiscal years 2008 and 2009,
BIA spent about $13.1 million and $13.3 million in salaries and benefits,
respectively. BIA budget officials provided us some documentation showing that
detention funds were “swept” or reprogrammed from the program to other public
safety and justice programs. These officials stated that they provided us with all
the documentation they could find. We found that detention funds “swept” or
reprogrammed amounted to a minimum of about $2.9 million, or 4.5 percent, in
fiscal year 2008 and about $2.3 million, or 3.5 percent in fiscal year 2009.

Based on the minimal data provided in various forms of documentation by the
facilities visited, we determined that between 44 and 86 percent of funds allocated
to bureau-operated facilities were used for salaries and benefits in fiscal year
2009. We were told that staffing shortages exist for a variety of reasons, such as a
lack of proactive management and direction; socioeconomic challenges, such as
remote locations, unavailable housing, and low salary; applicants frequently fail
background checks; or human resources processing delays related to hiring new
employees.

Staffing Issues
Understaffed Detention Facilities
BIA has failed to address staffing shortages. During our site visits, we were told
that facilities vary in their level of staffing for a variety of reasons. Figure 2
illustrates the understaffed facilities we visited.




                                                                                     4
                          Staffing Levels at Facilities Visited

                                                            Correctional Officers
                                Inmate                                    Average number
        Facility                                  Required      Total
                               Capacity                                    of officers per
                                                   officers    officers
                                                                                 shift
Blackfeet Detention
                                   44                 21         7              1-2
Center
Crow Law
Enforcement                        32                 13         8              1-2
Center
Truxton Canon
Agency Detention                   40                 21         5               2
Center
Pine Ridge
Detention Center –
                                  144                 45         36             4-5
Oglala Sioux Tribal
Offenders Facility
Medicine Root
Detention Center –
                                   24                 171        8               1
Kyle Correctional
Facility
San Carlos
Department of
                                  156                 64         55             4-5
Corrections and
Rehabilitation
Rosebud Adult
                                   68                 15         102            1-3
Detention Center
Hualapai Juvenile
Detention and
                                   24                 23         29             3-4
Rehabilitation
Center3

Figure 2. This table shows staffing levels at facilities.
1
  Includes all facility staff.
2
  Includes two officers detailed from juvenile facility.
3
  This facility is fully staffed.

As a result of staffing shortages, correctional officers work long hours and often
incur overtime pay. Furthermore, they must often forgo vacation or time off for
illness because it would either be denied or be a burden to their coworkers. For
example, we were told that one correctional officer at the Crow Law Enforcement
Center resigned because her request for maternity leave was denied due to a
staffing shortage. We were also told that two correctional officers recently
resigned from the Truxton Canon Agency Detention Center because of long hours


                                                                                         5
and the inability to use annual leave or sick leave. This facility was shut down in
2005 due to staffing shortages but reopened in 2007.

Insufficient staffing also affects inmate supervision. At the sites we visited, we
found that inmate housing units are intermittently monitored via a control room
rather than directly supervised, which increases the risk of serious incidents. For
example, as a result of poor supervision, an in-custody death occurred at the Pine
Ridge Detention Center – Oglala Sioux Tribal Offenders Facility (Pine Ridge),
and correctional officers were attacked at the Crow Law Enforcement Center.
Officers stated that these incidents occurred because of too few officers available
to monitor the inmates.

At the Pine Ridge facility and Medicine Root Detention Center – Kyle
Correctional Facility (Medicine Root) staffing shortages occurred, in part,
because of the reduction in force ordered by the Chief of Police in August 2009.
We were told that six to seven correctional officer positions were eliminated from
the Pine Ridge facility while a corrections official stated that he witnessed an
increase in police officer positions, equipment, and vehicles. At the Medicine
Root facility, one correctional officer’s position was eliminated while the jail
administrator stated that he witnessed an increase in police staff, benefits,
training, and equipment. The jail administrator also stated that the corrections
program should be moved out from under the Chief of Police.

BIA attempted to address the staffing shortage by entering into a $1 million, 1-
year contract with the National Native American Law Enforcement Association
(NNALEA) for recruitment services. As a result of deficiencies in the award
process and price negotiations, a vague statement of work, and unspecific contract
performance requirements that our office identified in the contract, 1 BIA
terminated the contract after 8 months for convenience on February 25, 2010.
Since the contractor claimed to have performed most of the work necessary under
the terms of the contract, BIA agreed to pay $967,000 for recruitment efforts
which bore little, if any, benefit.

In February 2010, BIA issued a report in response to a Congressional inquiry
from former U.S. Senator Byron Dorgan (D-ND) acknowledging that although the
bureau received significant budget increases for law enforcement and corrections
over the last 3 years, it had been unable to increase the numbers of trained staff
for various reasons. The BIA report stated that “[a]lthough much of the evidence
for these obstacles is anecdotal, we hear them frequently, and believe that each of
them has at least some measure of truth.

    •   Human resources process takes too long.


1
  Management Advisory – Bureau of Indian Affairs’ Contract With the National Native American Law
Enforcement Association Contract No. CBK00090002 (Report No. WR-EV-BIA-0015-2009), dated February
2, 2010.

                                                                                               6
   •   Current pay grade structure lower than other federal agencies, particularly
       for corrections officers and law enforcement supervisors performing the
       same type of duties.
   •   Remote areas, with poor job opportunities for spouses.
   •   In some areas, the lack of available housing for law enforcement
       employees acts as a barrier to recruitment and retention.
   •   The length of the Indian Police Academy (IPA) courses and its distance
       from many tribal locations.
   •   High dropout rate from the IPA: 56.6 percent attrition from the Basic
       Police Officer training program and 38.4 percent attrition from the Basic
       Corrections Officer Training.
   •   Lack of a permanent BIA law enforcement recruitment program.
   •   Failure to identify and recruit qualified Indian candidates.
   •   Dangerous working conditions.
   •   Lack of upward mobility; many officers are hired away by other
       agencies.”

DOJ Grant Process
We found that the Department of Justice (DOJ) grant process impacts the current
BIA detention facility situation. Currently, DOJ awards grants to tribes for
construction and renovation of detention facilities, and BIA is responsible for
operating and maintaining these facilities. We were told, however, that BIA and
DOJ do not coordinate well in this process. BIA officials commented that they
want more involvement in the decision-making process because of the impact on
detention funding. For example, in 2009, DOJ awarded ARRA construction and
renovation grants amounting to about $220 million. A DOJ official stated,
however, that no ARRA funds were provided for operating these facilities, so it
will be difficult for BIA to fully staff, operate, and maintain new facilities when it
cannot do so for existing facilities.

Facilities in Unsatisfactory or Poor Condition
Our objective did not include assessing the physical conditions of the detention
facilities, yet we could not ignore the egregious conditions we noted during our
review. We consider more than half of the nine detention facilities we visited to
be in unsatisfactory or poor condition, to include: leaky roofs; defective heating,
fire safety, and security systems; non-detention grade doors, windows, and
fencing; rust-stained sinks, toilets, and showers; and an overall lack of cleanliness.

BIA-Operated Facilities
The Blackfeet Detention Center needs several repairs and upgrades. We observed
non-locking doors, non-detention grade doors and door handles, garbage bags
used as shower curtains, and recreation yard concertina wire with gaps wide
enough for an inmate to easily fit through.




                                                                                     7
Figure 3. OIG photo of a shower that uses a garbage bag as a shower curtain at the
Blackfeet Detention Center.

The Crow facility has structural deficiencies and needs repairs. We observed non-
detention grade doors, windows, and fencing; nonworking security cameras; rust-
stained sinks, toilets, and showers; and an overall lack of cleanliness. We also
observed potential health and safety hazards, including electrical wires running
from one pod to another, fire extinguishers accessible to inmates, recreation and
dining areas improperly secured, and potential escape routes. We also observed a
relatively new sally port, 2 fully funded by BIA, unfinished and boarded up.




Figure 4. OIG photo of an inmate dining area with a non-detention grade exit door at the
Crow facility.




2
    A sally port is a secure entry way that consists of a series of doors or gates.

                                                                                           8
The Truxton Canon facility also has structural deficiencies and needs repairs. We
observed a non-working intercom system, excessive use of extension cords, gaps
under the perimeter fence, an unsecure sally port, and a potential escape route.

Tribally-Operated Facilities
At the relatively new Pine Ridge facility, we observed an improperly working
heating system, and a broken sally port door.

We found that the Medicine Root facility needs major renovations and repairs.
We observed improperly working security and fire equipment; leaky roofs; non-
working and rust-stained sinks, showers, and toilets; and stained holding cells.




                                                                                   9
Conclusion and Recommendations
Conclusion
Our review found no significant improvements in the staffing situation of BIA’s
detention facilities since the OIG report issued in 2004. The problems identified
in this evaluation cannot be attributed solely to a lack of funding. Rather, it is how
those funds are allocated and spent. We could not easily determine how detention
funds were used because there is no financial management system that identifies,
accumulates, and reports on how funds are spent agency-wide by activity or cost
category. Without specific allocations, we cannot identify what money was to be
spent on salary, or what was done with the money that should have been spent on
salary.

Recent Actions to Address Staffing Shortages at Detention Facilities
On November 19, 2010, following the completion of our fieldwork, we met with
the bureau’s newly appointed Deputy Director of OJS. We were encouraged to
learn that the Deputy Director has been working on a holistic approach to address
overall detention operational deficiencies, which includes the recruitment and
retention of correctional officers and improving the overall physical conditions of
detention facilities. For example, we were told that the bureau has developed and
begun implementing a recruitment model to hire correctional officers, which has
already shown promising practices to help alleviate staffing shortages. This model
includes, at a minimum, salary up-grades, open and continuous job vacancies for
correctional officer positions Nationwide, recruitment and retention bonuses, and
duty station travel allowances. The bureau is also working on establishing a
system to track the number of various law enforcement staff positions agency-
wide and account for the allocation and expenditure of law enforcement funds.

Recommendations
We recommend that the Assistant Secretary – Indian Affairs:

   1. Develop and implement a financial management system that identifies,
      accumulates, and reports on detention funding priorities, budget
      allocations, and expenditures agency-wide by activity or cost category.

       Indian Affairs Response: The Bureau of Indian Affairs disagrees that a
       financial management system needs to be developed and implemented
       because BIA already has and utilizes several financial management
       systems, which, taken together, will accomplish the same objectives.
       These systems identify, accumulate, and report on detention funding down
       to the agency level. In addition, BIA utilizes in-house tracking tools along
       with financial information to prepare reports on such items as spending by
       object classification. The financial system and tracking tools allow BIA to
       track budget allocations and expenditures agency-wide by activity and
       budget object class category to the individual tribe and agency, and in the

                                                                                   10
   case of the Direct Service, to the individual item and budget object cost
   category.

   OIG Reply: We could not complete our objective because the Bureau of
   Indian Affairs’ financial management system and tracking tools cannot
   identify and account for detention funding expenditures by activity, such
   as staffing, or the number of corrections officers by facility. We disagree
   with BIA’s assertion that these systems as a whole provide the necessary
   management information. For example, in the case of Direct Service,
   which is only 25 percent of BIA’s detention program, the bureau has
   salary data but does not account for funding used for existing staff versus
   new hires, which is necessary to track the funding increases that BIA
   received to address the staffing shortage. The bureau does not account for
   how funding is spent for the remaining 75 percent of the detention
   program. We found that very little has changed since 2004 when our
   office reported that funds were virtually unaccounted for once allocated to
   the bureau-operated and tribally-operated detention facilities. Therefore,
   we request that BIA reconsider its position on this recommendation and
   provide a plan for implementation, including target dates for completion
   and the official(s) responsible.

2. Develop and implement plans and strategies to alleviate detention staff
   shortages (staff recruitment and retention). Specifically, these plans and
   strategies should address issues such as the lack of proactive management,
   unavailable housing, remote locations of the facilities, low pay grade
   structure, and human resources processing delays.

   Indian Affairs Response: The Bureau of Indian Affairs concurs with the
   recommendation to develop and implement plans and strategies to address
   staffing shortages. Newly appointed Office of Justice Services (OJS)
   management has placed an emphasis on hiring within the Division of
   Corrections. Pay grades of all Division of Corrections field positions have
   been, or are being, upgraded to come in line with similar positions in other
   Federal agencies. As a result, there has been an increase in applications
   and the ability to hire much needed staff. In an attempt to rapidly fill
   vacant positions on the Standing Rock Reservation, BIA is scheduled to
   pilot an expedited hiring process in March 2011. If successful, the pilot
   will be duplicated at other locations. In addition, OJS human resources
   services were recently relocated in anticipation of increasing the
   interaction and productivity of processing applications. To address staff
   housing shortages, OJS is working with local BIA agency superintendents
   and tribes and the Office of Facilities Management to find suitable
   housing.




                                                                               11
   OIG Reply: We request that the Bureau of Indian Affairs provide a plan
   for implementing this recommendation, including target dates for
   completion and the official(s) responsible.

3. Improve the physical condition of bureau-operated and tribally-operated
   detention facilities, and ensure that maintenance and repairs are being
   performed as required.

   Indian Affairs Response: The Bureau of Indian Affairs concurs with the
   recommendation to improve the physical condition of detention facilities
   and ensure that maintenance and repairs are being made. The
   improvement, repair, and new construction of facilities is continuous and
   therefore, has no completion date. Condition assessments are conducted
   every 3 years through a contractual arrangement. When identified,
   deficiencies are recorded in a database, with health and safety deficiencies
   being corrected first. Major project and operation and maintenance
   funding is provided by annual appropriations through the Public Safety
   and Justice Construction budget. Operation and maintenance funds for
   existing facilities are distributed based on a formula.

   OIG Reply: The Bureau of Indian Affairs agrees with the
   recommendation and states that the bureau is already working to address
   this issue, but stated that the program does not have a date of completion.
   To ensure that appropriate corrective actions are being taken to improve,
   maintain, and repair facilities, we request that BIA provide the bureau’s
   detention facility improvement and repair plan of action and the official(s)
   responsible, as well as documentation on the nature and extent of
   improvements and repairs made to bureau-operated and tribally-operated
   facilities.




                                                                             12
Appendix 1: Scope and Methodology
Our scope covered fiscal year 2008 through the present and included only BIA-
operated and Public Law 93-638 contract tribally-operated facilities. We
conducted our evaluation in accordance with the Quality Standards for
Inspections as put forth by the President’s Council on Integrity and Efficiency. To
accomplish our objective, we conducted the following activities:

   •   Reviewed DOI-OIG’s 2004 report “Neither Safe Nor Secure: An
       Assessment of Indian Detention Facilities.” Other related coverage was
       reviewed, but this report was considered most pertinent to our evaluation;
   •   Reviewed applicable laws, regulations, and bureau policies and procedures
       related to detention;
   •   Reviewed BIA’s public safety and justice budget justifications for fiscal
       years 2005 through 2010;
   •   Reviewed Congressional appropriations related to the BIA’s public safety
       and justice program for fiscal years 2005 through 2010;
   •   Interviewed Office of Management and Budget, DOI, DOJ, BIA, tribal,
       and contractor officials; and
   •   Judgmentally selected and conducted site visits of nine detention facilities.

OJS management provides a lump sum amount of funding to the Office of Self
Governance for allocation to the self-governed tribes. Our review did not include
self-governance compact tribes, or a review of the economy and efficiency of the
tribes visited.




                                                                                 13
Appendix 2: Sites Visited and/or
Contacted
Site Visited                                  Location
                                              Washington, DC
                                              Reston, VA
BIA Offices                                   Albuquerque, NM
                                              Phoenix, AZ
                                              Billings, MT
DOI Law Enforcement Offices                   Washington, DC

Office of Management and Budget*              Washington, DC

Department of Justice*                        Washington, DC

NNALEA Headquarters                           Washington, DC
San Carlos Department of Corrections
                                     San Carlos, AZ
and Rehabilitation (638)
Hualapai Juvenile Detention and
                                     Peach Springs, AZ
Rehabilitation Center (638)
Truxton Canon Agency Detention
                                     Peach Springs, AZ
Center (BIA)
Crow Law Enforcement Center (BIA)             Crow Agency, MT

Blackfeet Detention Center (BIA)              Browning, MT
Pine Ridge Detention Center - Oglala
                                              Pine Ridge, SD
Sioux Tribal Offenders Facility (638)
Rosebud Adult Detention Center
                                              Rosebud, SD
(638)
Wanbli Wiconi Tipi Detention Center
                                              Rosebud, SD
(638)**
Medicine Root Detention Center –
                                              Kyle, SD
Kyle Correctional Facility (638)



*Site contacted but not visited
**Site visited but not thoroughly evaluated




                                                                14
Appendix 3: Bureau Response
See the pages that follow for the bureau’s response.




                                                       15
                          United States Department of the Interior
                                           BUREAU OF INDIAN AFFAIRS
                                                Washington, D.C. 20240

IN REI'LYREFER TO:


                                                  FEB 22 2011
  Memorandum

  To:                  Kimberly Elmore
                       Assistant Inspector Gen ral   firAudits, Inspections and Evaluations
  t hrough :           Larry Echo Hawk /              (",,-
                       Assistant secret~ - I ' an Affairs

  From:              \11 Michael Black ~tv ~      t
                     \) Director, Bureau of Indian Affairs

  Subject:             Office of Inspector General Draft Evaluation - Bureau of Indian Affairs
                       Detention Facilities, (Report No. WR-EV-BIA-0005-2010)

  This memorandum is in response to your draft evaluation report dated February 3, 2011 ,
  regarding the Bureau of Indian Affairs (BIA) detention facilities . The report identified three
  recommendations for the BIA to consider. The BIA concurs with two of the three
  recommendations and has already begun corrective actions to address each area of concern.

  Recommendation #1

  Develop and implement a financial management system that identifies, accumulates, and reports
  on detention funding priorities, budget allocations, and expenditures agency-wide by activity or
  cost category.

  Response:

  Indian Affairs does not concur with recommendation 1.

  Indian Affairs disagrees that a financial management system needs to be developed and
  implemented because IA already has and utilizes several financial management systems, which
  taken together will accomplish the same objectives. These systems identify, accumulate and
  report on detention funding down to the agency level. These financial management systems are
  the Federal Financial System (FFS) and the Business Objects Enterprise System (BOES). In
  addition, Indian Affairs also utilizes in-house tracking tools as the Budget Execution and
  Reporting Tool (BERT) and the Document Direct to utilize information from the FFS to prepare
  specific reports on such items as spending by object classification. FFS is the legacy financial
  system used by DOl bureaus that have not yet migrated to the Financial and Business
  Management System (FBMS). FFS is the official financial system of Indian Affairs. FFS, in
  concert with BOES, BERT, and Document Direct, provides a complete set of financial
management tools that allows for tracking budget allocations and expenditures agency wide by
activity and budget object class category. These tools allow the BIA, Office of Justice Services
(OJS) the ability to track budget allocations and expenditures to the individual Tribe and Agency
and, in the case of the Direct Service, to the individual item and budget object cost category.
Recommendation #2
Develop and implement plans and strategies to alleviate detention staff shortages (staff
recruitment and retention). Specifically, these plans and strategies should address issues such as
the lack of proactive management, unavailable housing, and remote locations of the facilities,
low pay grade structure, and human processing delays.
Response:
Indian Affairs concurs with recommendation 2.
As noted in the Evaluation Report, the OJS new management structure has placed an emphasis
on hiring within the Division of Corrections (DIVCORR). Pay grades of all DIVCORR field
positions have been, or are being, upgraded to come in line with similar positions in other
Federal agencies. For example, GS-0007-Corrections Officers have been upgraded from GS-
3/4/5 to GS-5/617. This upgrade has resulted in an increase in applications and the ability to hire
much needed additional staff. OJS ' expectation is that this will result in significant interest and
applications as well as contribute to improved retention rates.
In an attempt to rapidly fill vacant positions, OJS, in cooperation with Indian Affairs Office of
Human Capital Management, is scheduled to pilot an expedited hiring process on the Standing
Rock Reservation in early March 2011 . This process will entail application and initial
background processing and the ability to "Direct Hire." Based on the expected success of the
pilot, it will be duplicated at other locations. For the longer term, the human resources
function(s) which services OJS was recently relocated from Anadarko, Oklahoma to Reston,
Virginia, which is expected to increase the interaction and productivity of the processing.
The lack of staff housing is also being addressed and OJS has been working with local BIA
Agency Superintendents and Tribes to find suitable housing. OJS is also working with the
Office of Facilities Management (OFMC) on housing alternatives such as modular housing.
Lack of housing is not always a problem, but where it is, OJS has been working diligently with
other partners to mitigate the problem.
Point of Contact:
Charlie Addington, Associate Director, Field Operations Division (202)-208-5787
Recommendation # 3
Improve the physical condition of bureau- and tribally-operated detention facilities and ensure
that maintenance and repairs are being performed as required.
Response:
Indian Affairs concurs with recommendation 3.
The facilities improvement, repair and new construction program is managed through the
Facilities Management Information System and conforms to the Department of the Interior Asset
Management Plan. The facility conditions are included in a data base of all facility deficiencies.
Deficiencies are recorded whenever discovered and in addition, every three years, a full
condition assessment is conducted through a contract arrangement with a consulting firm
specializing in facility operations and maintenance.

Funds for correction of deficiencies are provided through annual appropriations and include
operations and maintenance funds as well as major project funds are used to improve and repair
facilities as a single project or construct new facilities as provided through Public Safety and
Justice Construction budget. Routine operations and maintenance funds are distributed on a fair
share basis by fonnula and are used to maintain existing structures. Deficiencies are corrected in
a safety and health first priority, with other corrections following. In addition, a risk assessment
program is used in evaluating the threat to health and safety risk of the deficiency with imminent
threats eliminated immediately through corrective action or other threats corrected in accordance
with the risk evaluation. Due to the nature of improvements, repairs and construction to correct
facilities deficiencies, the program is continuous and does not have a date of completion.

Point of Contact:

Mr. John Rever, Director, Facilities, Environmental and Cultural Resources, Indian Affairs
(703)-390-6314.
Appendix 4: Status of Report
Recommendations
 Recommendation            Status               Action Required
                                            Reconsider
                  Indian Affairs does not   recommendation and
                  concur; reconsider and    provide a plan for
       1
                  additional information    completing the action,
                  requested                 including target dates and
                                            official(s) responsible.
                                            Provide a plan for
                  Indian Affairs concurs;
                                            completing the actions,
       2          additional information
                                            including target dates and
                  requested
                                            official(s) responsible.
                                            Provide the bureau’s
                                            detention facility
                                            improvement and repair
                  Indian Affairs concurs;   plan and documentation
       3          additional information    on the nature and extent
                  requested                 of improvements and
                                            repairs made to bureau-
                                            operated and tribally-
                                            operated facilities.




                                                                  19
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            703-487-5435

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
